No. 19-815
IN THE SUPREME COURT OF THE UNITED STATES
LISA M. PHOENIX, PETITIONER
v.
REGIONS BANK

CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with
copies of the REPLY BRIEF FOR THE PETITIONER, via email by agreement
between the parties pursuant to the Court’s order of April 15, 2020, this 22nd day
of April, 2020.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,771 words, excluding the parts of the brief that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on April 22, 2020.

DONALD BURKE
ROBBINS, RUSSELL, ENGLERT, ORSECK,
UNTEREINER & SAUBER LLP
2000 K Street, NW, 4th Floor
Washington, DC 20006
(202) 775-4500
dburke@robbinsrussell.com

19-815
LISA M. PHOENIX
REGIONS BANK
John A. Anthony, Esq.
Anthony & Partners, LLC
201 N. Franklin St., Suite 2800
Tampa, FL 33602
janthony@anthonyandpartners.com

